Audit Report




OIG-11-054
SAFETY AND SOUNDNESS: Failed Bank Review of Security
Savings Bank, FSB
December 22, 2010




Office of
Inspector General
Department of the Treasury
 
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                           December 22, 2010


            OIG-11-054

            MEMORANDUM FOR JOHN E. BOWMAN
                           ACTING DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                 Susan L. Barron /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of Security Savings Bank, FSB


            This memorandum presents the results of our review of the failure of Security
            Savings Bank, FSB (Security Savings), of Olathe, Kansas. Security Savings opened
            in January 1957 as Security Savings and Loan Association, a state-chartered stock
            institution. The bank converted to a federal stock savings bank and changed its
            name to Security Savings Bank in 1993. Security had its home office in Olathe,
            Kansas, and eight additional branches in Kansas including the Kansas City
            metropolitan area, Salina, and Wichita. The thrift was wholly owned by Brittany
            Savings Corporation, a unitary, non-diversified savings and loan company. The
            Office of the Thrift Supervision (OTS) closed Security Savings and appointed the
            Federal Deposit Insurance Corporation (FDIC) as receiver on October 15, 2010. As
            of June 30, 2010, the bank had $508.4 million in total assets. FDIC estimated that
            the loss to the Deposit Insurance Fund is $82.2 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Security Savings that was limited to (1) ascertaining the
            grounds identified by OTS for appointing the FDIC as receiver and (2) determining
            whether any unusual circumstances exist that might warrant a more in-depth
            review of the loss. In performing our review we (1) examined documentation
            related to the appointment of FDIC as receiver, (2) reviewed OTS reports of
            examination, and (3) interviewed OTS examination personnel.

            We conducted this performance audit during October and November 2010 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and conclusions
OIG-11-054
Page 2

based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.


Causes of Security Savings’ Failure
OTS appointed FDIC as receiver based on the following grounds: (1) the bank was
undercapitalized, and had no reasonable prospect of becoming adequately capitalized;
(2) the bank failed to submit a capital restoration plan acceptable to OTS within the
time prescribed; and (3) the bank, by resolution of its board of directors, consented to
the appointment.

The primary causes of Security Savings’ failure were its aggressive growth strategy
and excessive concentrations in higher-risk commercial real estate, land, and
construction loans, including purchases of out-of-territory loan participations. In
addition, credit administration practices at the bank showed undisciplined lending and
recurring weaknesses. These practices included lack of current financial information
and tax returns on borrowers/guarantors, failure to document periodic property
inspections, and the lack of independent internal loan reviews. These conditions were
exacerbated by the downturn in the real estate market. As a result, the bank
experienced significant increases in problem assets and loan losses. In turn, the loan
losses significantly diminished earnings and capital and, ultimately, led to Security
Savings’ failure.


Conclusion
Based on our review of the causes of Security Savings’ failure and the grounds
identified by OTS for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the thrift’s failure or the supervision
exercised by OTS. Accordingly, we have determined that a more in-depth review of
the thrift’s failure by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of Security Saving’s failure
summarized in this memorandum are consistent with the information contained in
its reports of examinations and documents in support of the grounds for
receivership. The response is provided as Attachment 1. A list of the recipients of
this memorandum is provided as Attachment 2.
OIG-11-054
Page 3

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or
J. Mathai, Audit Manager, at (202) 927-0356.

Attachments
                                                                            OIG-11-054

                                                                        Attachment 1
                                                                 Management Response




Note: We confirmed with OTS after the management response was issued that the response
should have cited the estimated loss as $82.2 million instead of $88.2 million.
         OIG-11-054

       Attachment 1
Management Response
                                                   OIG-11-054

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
